OFFICE OF INSPECTOR GENERAL

AUDIT OF THE OFFICE OF
DEVELOPMENT CREDIT’S
COMPLIANCE WITH FEDERAL
REGULATIONS AND GUIDANCE

AUDIT REPORT NO. 9-000-14-003-P
August 19, 2014

WASHINGTON, D.C.
Office of Inspector General


August 19, 2014

MEMORANDUM

TO:                  E3/DC, Director, Michael Metzler

FROM:                Assistant Inspector General for Audit, Nathan Lokos //s

SUBJECT:             Audit of the Office of Development Credit’s Compliance With Federal Regulations
                     and Guidance (Report No. 9-000-14-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft version and have included them in their entirety in
Appendix II.

This report contains seven recommendations to help strengthen USAID’s oversight of the
Development Credit Authority program. Management decisions are pending on all seven
recommendations.

Please provide written notice within 30 days of any actions planned or taken to implement these
recommendations and target dates for completion of final action.

I want to thank you and your staff for the cooperation and assistance extended to us during this
audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 5

     Banks Did Not Use All Guaranteed Amounts ....................................................................... .5

     Office Did Not Always Define or Differentiate Among Micro, Small, and Medium-Size
     Enterprises ............................................................................................................................ 8

     Office’s 2009 Operations Manual Did Not Include Section on Audits ..................................... 9

     Office Did Not Properly Document Borrower and Lender Risk Weightings ............................ 9

Evaluation of Management Comments.................................................................................. 11

Appendix I—Scope and Methodology ................................................................................... 14

Appendix II—Management Comments ................................................................................ . 17
SUMMARY OF RESULTS
According to USAID’s Development Credit Authority (DCA), banks in many developing countries
do not lend money easily. Instead, they invest much of their money in low-risk government
bonds. However, when they do lend money, they typically lend it to established customers and
impose high collateral requirements. As a result, many creditworthy borrowers who are not
established customers or do not have access to high collateral cannot borrow money.

In 1998, Congress gave USAID the general authority to provide credit assistance for any of the
development purposes specified in the Foreign Assistance Act of 1961. The following year, the
Office of Management and Budget (OMB) certified USAID to administer credit assistance
through DCA. Congress has renewed DCA every year since then.

DCA enables USAID’s missions to issue partial credit guarantees to banks and financial
institutions, particularly for loans in local currency that are backed by the U.S. Treasury. It
promotes private sector investment by encouraging financial institutions to lend large reserves
of private capital for projects benefitting long-term growth. Additionally, DCA builds the capacity
of domestic financial institutions by reducing the risk of extending credit into new sectors. As a
result, through the DCA, financial institutions can reduce collateral requirements, lengthen loan
periods, and explore new markets with the safety of a credit guarantee. The guarantees cover
debt transactions including term-loans, financial leases, wholesale loans, and a variety of other
debt instruments. The guarantees typically cover up to 50 percent of the risk in lending to
projects that advance USAID’s development objectives.

DCA’s partial guarantees make funds available to encourage local economic growth and
encourage risk-averse financial institutions to lend to creditworthy, but underserved borrowers.
By getting working capital to promising entrepreneurs and financing small farmers and others,
DCA seeks to prove the commercial viability of underserved markets so that lending and
investment continue long after USAID leaves a country.

From 1999 through the end of fiscal year (FY) 2012, USAID issued 378 guarantees worth
$3.23 billion in 69 countries. The lenders that received the guarantees had in turn utilized or lent
nearly $1.13 billion, or almost 34 percent. DCA guarantees have gone to entities in agriculture,
water, energy, health, and microfinance, and to micro, small, and medium-size enterprises
(MSMEs).

DCA is managed by the Office of Development Credit, and it issues four types of guarantees:
bond, loan, loan portfolio, and portable.1 Table 1 lists the number of each type of guarantee
issued, the number of loans made through the different guarantees, the maximum amount that
the lenders could distribute, and the actual amounts guaranteed since DCA started.




1
  A bond guarantee enables financial institutions, corporations, and other entities to issue bonds. A loan
guarantee is used when the borrower, lender, and loan uses are known. A loan portfolio guarantee
provides financial institutions with partial coverage of a portfolio of loans they provide to borrowers. A
portable guarantee provides a potential borrower with a letter of guarantee that they can then present to
lenders. It is then converted into a loan or bond guarantee.


                                                                                                        1
              Table 1. Distribution of Guarantees, 1999 Through FY 2012 (Audited)

                                                        Planned
          Guarantee         Guarantees      Total                              Utilization
                                                        Distribution
          Type              Issued          Loans                              ($ Million)
                                                        ($ Million)
          Bond                   12                7                233                122
          Loan                   47               41                188                129
          Loan Portfolio        319          131,653             2,559                 877
                                  [1]                                 [2]
          Portable              NA                NA              248                    0
          Total                 378          131,701             3,228               1,128
        [1]
            Portable guarantees are issued after they are converted into a loan or bond
        guarantee. Thus, issued portable guarantees are included in the loan or bond
        guarantee totals above.
        [2]
            Planned distribution amount is the total of eight terminated or expired and seven
        active portfolio guarantees that were never actually issued as loan or bond guarantees.

This audit focused on loan portfolio guarantees because that category represents nearly
84 percent of all guarantees and almost all loans issued.

The Office of Inspector General (OIG) conducted this audit to determine whether the Office of
Development Credit complied with federal regulations and guidance pertaining to credit loan
guarantees. These regulations and guidance call for agencies to establish certain internal
controls and comply with specific requirements, which the office did. For example, the office
established the internal controls listed below that refer to and meet federal regulations and
guidance for its partial credit guarantee program:

   A credit review board to review and approve guarantee packages prepared by the office.

   A financial management and reporting system.

   A process to calculate subsidy costs and perform annual reestimates.

   A risk assessment procedure for all proposed guarantee agreements.

   Guidance to review and approve claims, recoveries, and other related activities to ensure
    consistent work practices through the operations manual, portfolio monitoring guide, and
    plans to monitor guarantees.

Moreover, the office complied with specific requirements in federal regulations and guidance,
such as the need to assess the risk posed by its guarantees. The office used guidance in its
handbook to calculate the country, borrower, lender, and transaction risk scores in order to
determine the overall risk score for its guarantees. The risk score was also used to calculate the
subsidy cost (that missions pay), and origination and utilization fees (that banks pay). In
addition, the office’s risk assessment charged riskier borrowers more than those that pose less
risk.

In addition, the office implemented actions on four recommendations issued in OIG’s September
25, 2006, “Audit of USAID’s Development Credit Authority” (Report No. 9-000-06-009-P). OIG
had recommended that the office issue policies and procedures to verify the eligibility of loans,




                                                                                                  2
clarify additionality2 requirements for loans, clarify roles and responsibilities related to
establishing and monitoring guarantee utilization rates, and issue guidance that missions review
their unused subsidies as part of the ongoing monitoring process. The Office of Development
Credit also has collaborated and consulted with mission officials and lenders consistently, as
shown in the office’s biennial reports, progress reports, trip reports, and monitoring reports.
Mission officials said they were pleased with the office’s support. Finally, in addition to the
efforts of the office, USAID has issued agency-wide guidance concerning credit guarantees in
its Automated Directives System (ADS). Specifically, USAID has two ADS chapters that apply to
credit programs: ADS 249, “Development Credit Authority,” and ADS 623, “Financial
Management of Credit Programs.”

Notwithstanding the program’s positive aspects, the audit found certain areas for improvement.

     Banks did not utilize all available guaranteed amounts (page 5). In fact, many banks with
      active and expired loan portfolio guarantee agreements had not made any loans. This
      resulted in missions’ subsidies being locked up and not available for other uses.

     The office did not always define or differentiate among micro, small, and medium-size
      enterprises (page 8). As a result, there may be greater risk that some small borrowers, such
      as microenterprises, would receive loans larger than they can successfully manage

     The office’s 2009 operations manual did not include a section on audits, which had
      discussed the oversight options of performing on-site visits and conducting independent
      audits (page 9). The omission of this section may reduce the likelihood that these tools are
      fully considered when further oversight of a guaranteed party is required.

     The office did not properly document borrower and lender risk weightings and the bases for
      those ratings (page 9).

To address the above issues, the audit recommends that the Office of Development Credit:

1. Revise loan portfolio guarantee target utilization rates to reflect historical data, and
   incorporate them into its operations manual and portfolio monitoring guide (page 7).

2. Implement an action plan to encourage banks to meet loan portfolio guarantee target
   utilization rates and require them to include utilization guidelines in on-boarding documents
   for bank partners (page 7).

3. Confirm and document that partner banks have clear and acceptable utilization strategies
   before finalizing guarantees (page 8).

4. Establish guidelines on when to amend, modify, or terminate a guarantee for insufficient use
   (page 8).

5. Coordinate with missions to define what constitutes a micro, small, and medium-size
   enterprise in the host country and consistently insert those definitions into its legal
   agreements directed at such enterprises (page 8).

6. Revise its operations manual and portfolio monitoring guide to require that it or the mission
2
    A project is “additional” if it would not go forward without the support of a DCA guarantee.


                                                                                                   3
   conduct on-site reviews and/or commission an independent auditor, when warranted (page
   9).

7. Implement a procedure to clearly document the weighting of the risk factors in guarantees
   packages and the bases for adjusting or not adjusting those risk weightings (page 10).

Detailed findings are in the following section. The audit’s scope and methodology are described
in Appendix I. OIG’s evaluation of management comments is on page 11, and the full text of
management comments appears in Appendix II.




                                                                                             4
AUDIT FINDINGS
Banks Did Not Use All Guaranteed
Amounts
The Office of Development Credit’s 2009 operations manual states that the portfolio
management team ensures “DCA guarantees are actively and correctly utilized.” The office
defines utilization broadly “as the extent to which the Guaranteed Party [lender or bank] has
disbursed DCA-guaranteed loans.”

The office and the mission are jointly responsible for identifying and addressing utilization
problems through semiannual portfolio reviews. In doing so, they assess utilization rates
because utilization is the office’s primary quantitative measure of a guarantee’s success.
According to the manual, guarantees should reach the following target utilization rates:
10 percent after Year 1; 30 percent after Year 2; 60 percent after Year 3; 80 percent after
Year 4; 87 percent after Year 5; 97 percent in Year 6; and 100 percent from Year 7 through
Year 10. Additionally, the office is charged with analyzing and updating these rates at least once
every 2 years as the DCA portfolio matures.

The office’s 2004 operations manual3 stated that the office should work with the mission to
discuss low utilization with the lender if the following conditions were met:

1. If no loans were guaranteed by the end of first reporting period, which typically is 6 months
   after the guarantee agreement was signed.

2. If the cumulative utilization rate reported in the credit managing system (CMS)4 is less than
   10 percent of maximum cumulative disbursements (MCDs) by the second reporting period
   (typically 1 year after the agreement was signed).

3. If the cumulative utilization rate reported in CMS is less than 50 percent of MCD by the
   midpoint of the guarantee’s term.

Many guarantees are not meeting their targeted utilization rates.5 Additionally, 18 active pre-FY
2011 guarantees have an average age of 3 years and average utilization of not quite 4
percent—much less than the expected 10 percent utilization rate at the end of the Year 1
reporting period—at the end of FY 2012.



3
  The office’s 2004 operations manual is referenced in this report because the audit team’s samples for
utilization rates, claims checks, and testing of legal agreements for MSMEs included guarantees that
were monitored using conditions and specifications in that manual.
4
  CMS stores and processes data related to Agency credit programs. It provides information related to
loans under USAID guarantee coverage. The system is used to exchange information between financial
institutions and USAID to accelerate fees and claims processing, and to avoid data entry duplication.
CMS centralizes loan monitoring by allowing banks to provide guarantee program status.
5
  The audit team analyzed active and expired guarantees. Expired guarantees provide information on
utilization trends that can shed light on the utilization rates of active guarantees.



                                                                                                     5
Table 2 shows the number of active guarantees issued from 2007 to 2011 that met the
utilization rates specified in the 2009 operations manual. For example, only 46 of
114 guarantees—or 40 percent—met the target rate of 10 percent utilization for Year 1. As
further depicted in the table, the number of active guarantees meeting the target rates for
subsequent years was even lower.

    Table 2. Utilization Rates for Active Guarantees Issued From 2007 to 2011 (Audited)
                                                                  Year
                Loan Portfolio                               (Target Rate)
    Year
                 Guarantees             1              2           3             4         5
                                      (10%)          (30%)       (60%)         (80%)     (87%)
    2007              11                2              0           0             2         3
    2008              28               11             7            5             6
    2009              18                 4            5            8
    2010              33               20            18
    2011              24                 9
    Total             114              46            30           13             8          3
    Guarantees Meeting Target Rate     40%           33%          23%          21%        27%



In addition to the active guarantees above, we also analyzed the Office’s expired guarantees.
Only 43 of 77 expired guarantees (56 percent) met targeted utilization rates. 6 Taken as a whole,
these active and expired guarantees have been significantly underutilized as compared to the
target utilization rates. Finally, an analysis of terminated guarantees that were not fully utilized
revealed that 40 terminated guarantees had no utilization (0 percent) and were active for an
average of 2.34 years before being terminated (in contrast, the target utilization rate at Year 2 is
30 percent). Twenty additional terminated guarantees had an average utilization rate of 16
percent and were active for 3.8 years before being terminated (in contrast, the target utilization
rate at Year 3 is 60 percent).

The office provided the following reasons as to why the use of guarantees fell short of targeted
rates.

   Banks did not have clear guarantee implementation strategies. Sometimes banks are eager
    to sign the agreements and begin collaborating with USAID without having thought through
    how they will actually use the guarantee.

   A bank’s management or ownership structure changed, which slowed down the lending
    process and, subsequently, guarantee utilization. Similarly, new shareholders may wish to
    modify the bank’s strategy or refocus lending activities.

   Guarantees from other sources made the DCA guarantee less competitive. Alternatively,
    banks realized that they did not need USAID’s guarantee to lend to the targeted sector.

   Banks had difficulty identifying good projects and may not have had the required in-house
    expertise to undertake the necessary credit analyses.
6
  The office also had four terminated guarantees that were fully utilized, which means that those
guarantees could not be used to cover further loans.


                                                                                                  6
   Banks did not market their guarantees to potential borrowers properly.

   The host country’s central bank did not recognize USAID’s guarantee. This can adversely
    affect loan classification as well as reserve and collateral requirements, making the
    guarantee less attractive than originally envisioned.

   Banks’ officers may not have completely understood the constraints, such as the country’s
    central bank’s lending restrictions.

   Banks signed guarantees in anticipation of regulatory changes that never materialized.

   Weaknesses in the legal and regulatory environment may have hindered lending to certain
    borrowers. For example, lending to municipalities may have been hampered without
    legislation giving municipalities the authority to borrow or pledge their assets.

In addition to the above, while the Office of Development Credit put the onus on participating
missions to get the banks to meet targeted utilization rates by Year 4, it did not communicate
the target utilization rates to banks when the guarantees were being designed. Moreover, the
legal guarantee agreements between USAID and the banks did not always cite the utilization
rates that banks were supposed to meet. Since knowing desired targets is an important factor in
developing and implementing strategies to achieve those targets, we believe that the failure to
consistently present banks with target utilization rates may also have played a role in DCA
guarantees falling short of target utilization rates.

In the office’s opinion, utilization rates are not a rigid metric for measuring guarantees; instead
they act as guides to determine when USAID needs to investigate further and intervene to
increase utilization. It also said that utilization rates are the result of the type of guarantee, the
number of years it has been active, the availability of technical assistance, and the partner
bank’s desire to see the guarantee work. The office further indicated that if the guarantee’s
utilization rate was less than 10 percent after the first year, it reviewed the bank’s strategy, loans
placed under coverage, and proposed loans to determine whether to intervene. Finally, office
staff said that if they suspect utilization of a guarantee would not increase, they would discuss
ways to improve utilization rates, such as outreach, and would then work with the mission to
provide training to banks and potential borrowers.

That being said, a significant number of guarantees are still being underutilized in comparison
with the target utilization rates. As a result, funds remain obligated in underperforming
guarantee agreements that might be used more productively elsewhere. Accordingly, we are
making the following recommendations to help address the underutilization of guarantees.

    Recommendation 1. We recommend that the Office of Development Credit revise loan
    portfolio guarantee target utilization rates to reflect historical data, and incorporate them
    into its operations manual and portfolio monitoring guide.

    Recommendation 2. We recommend that the Office of Development Credit implement
    an action plan to encourage banks to meet loan portfolio guarantee target utilization
    rates and require them to include utilization guidelines in on-boarding documents for
    bank partners.




                                                                                                    7
   Recommendation 3. We recommend that the Office of Development Credit confirm and
   document that partner banks have clear and acceptable utilization strategies before
   finalizing guarantees.

   Recommendation 4. We recommend that the Office of Development Credit establish
   guidelines on when to amend, modify, or terminate a guarantee for insufficient use.

Office Did Not Always Define or
Differentiate Among Micro, Small,
and Medium-Size Enterprises
ADS 596, “Management’s Responsibility for Internal Control,” states that Agency managers are
responsible for ensuring that “internal controls are incorporated into strategies, plans, guidance,
and procedures that govern programs and operations.” Furthermore, the agency managers
should ensure that “internal control standards are maintained in the implementation of activities
to achieve Agency program goals and objectives.”

Defining and differentiating among MSMEs is an important internal control that helps to reduce
the risk that borrowers will receive significantly larger loans than they can successfully manage.
Nevertheless, only 10 of 19 DCA legal agreements examined that were targeted at MSMEs
defined MSMEs using the definition applied by the country where the guarantees were being
executed.

Staff in the Office of Development Credit said they did not always define MSMEs for
five reasons:

1. The office is not a bank.

2. Countries define MSMEs differently.

3. Defining MSMEs would constrain DCA.

4. Defining MSMEs would be duplicative, office staff said, since legal agreements contain a
   section called “Qualifying Borrower and Maximum Loan Size.”

By not defining MSMEs in all agreements targeted at MSMEs, the Office of Development Credit
is not effectively using a basic internal control that could benefit the program, its lenders, and its
borrowers. Moreover, there may be greater risk that some small borrowers, such as
microenterprises, would receive loans larger than they can successfully manage. Therefore, we
make the following recommendation.

   Recommendation 5. We recommend that the Office of Development Credit coordinate
   with missions to define what constitutes a micro, small, and medium-size enterprise in
   the host country and consistently insert those definitions into its legal agreements
   directed at such enterprises.




                                                                                                    8
Office’s 2009 Operations Manual
Did Not Include Section on Audits
ADS 596.2.l states that Agency managers are responsible for making sure that internal controls
are incorporated into strategies, plans, guidance, and procedures that govern programs and
operations. Furthermore, Agency managers are required to confirm that internal control
standards are followed when activities are implemented.

The office’s 2004 operations manual, a type of internal control, had a section called “Audits”
which indicated that the results of nominal, subsidy, and portfolio checks could prompt an
internal review of the lender’s transaction reports and qualifying loan schedules. This section
also cited other explicit oversight actions that could be taken, such as performing on-site visits
and, in the case of irregularities, an audit by an experienced, independent auditor.

In contrast, the 2009 updated operations manual no longer contained a section on audits.
Instead, the section addressing claims simply stated that if any two criteria from the nominal,
subsidy, and portfolio checks are met, then the regional manager should consider the possibility
of a more thorough review of the lender’s reports and review a sample of the loan file. There is
no longer explicit discussion of on-site visits and independent audits as oversight tools, as there
was in the prior version of the manual.

Although the office did not indicate why the language regarding on-site visits and independent
audits had been omitted from the 2009 version of the operations manual, we believe that
omitting mention of these oversight options may reduce the likelihood that these tools are fully
consideration when further oversight of a guaranteed party is required. Therefore, we make the
following recommendation.

   Recommendation 6. We recommend that the Office of Development Credit revise its
   operations manual and portfolio monitoring guide to require that it or the mission conduct
   on-site reviews and/or commission an independent auditor, when warranted.

Office Did Not Properly Document
Borrower and Lender Risk
Weightings
The U.S. Government Accountability Office’s “Standards for Internal Control in the Federal
Government” notes that all transactions and other significant events need to be clearly
documented. Since DCA is meant to increase credit and to be used when the risks of default
may be reasonably estimated and managed, it is important that USAID’s assessment of those
risks be clearly documented.

The risk assessment process calculates the borrower’s risk score within a weight range of 10 to
30 percent. We examined 25 guarantee packages. In those packages, the risk analysts noted
that borrowers in 13 packages posed risks, and those in the other 12 did not. Nevertheless, the
risk analysts assigned the same standard weight of 15 percent to 24 of the packages for credit
review board, without clearly documenting in the packages why the risks identified in the 13
packages did not merit an adjustment to that standard weight.




                                                                                                 9
Some of the borrower risks identified in the guarantee packages prepared for the credit review
board are listed below.

   Weak or limited managerial skills and financial sophistication

   Limited internal cash generation to finance business growth

   Lack of a credit history

   Limited collateral

   Poor business management skills and unsophisticated levels of corporate governance

Similarly, 11 of the guarantee packages identified lender risks. However, the average score for
those lenders was almost the same as lenders without risk. Moreover, the impact of these risks
on the weighting of the lender was not clearly documented in the packages. Some of those
lender risks are detailed below.

   Bank has many nonperforming loans and write-offs; bank has recorded a loss each year of
    the last 3 years; and the quality of bank’s portfolio has deteriorated.

   Small and medium-size enterprise loans are monitored poorly or bank is not experienced in
    lending to small and medium-size enterprises.

   The types of loans the bank will provide under the guarantee are not typical of what the
    bank normally offers; bank has only 1 year of experience lending in sector and has a small
    loan portfolio compared with the size of the guarantee

   Bank is not operationally sustainable or it is not doing as well as similar-sized banks and it is
    weaker than its parent bank.

While it is not clear why the bases for adjusting or not adjusting risk weightings were not always
clearly documented in the guarantee packages, an official stated that the office would in the
future include language indicating the weightings that were used for all transactions.
Nevertheless, we believe that it is also important to clearly document the reasons behind the
weightings used. Accordingly, we are making the following recommendation.

    Recommendation 7. We recommend that the Office of Development Credit implement
    a procedure to clearly document the weighting of the risk factors in guarantees packages
    and the bases for adjusting or not adjusting those risk weightings.




                                                                                                  10
EVALUATION OF MANAGEMENT
COMMENTS
Recommendation 1. The office agreed with this recommendation. The office stated that it has
revised its utilization targets based on data through FY 2011. Furthermore, the office stated that
it will incorporate the revised targets into its operations manual and portfolio monitoring guide.
The office expects to complete this action in FY 2014. However, since the office did not specify
a target date for completion of this action, a management decision has not been made on
Recommendation 1.

Recommendation 2. The office partially agreed with our draft recommendation, in that it noted
that it implements a detailed monitoring plan for each guarantee, which indicates how utilization
is to be tracked, reported and encouraged. In addition, the office stated that as part of its FY
2013 annual performance goals, the office strengthened how it manages its portfolio by
introducing new processes and procedures to better monitor utilization levels, including
quarterly outreach to financial institution partners. The office noted its intent to institutionalize
these performance management improvements in its FY 2014 update of the Development
Credit Authority operations manual.

The office, however, disagreed with the second part of our draft recommendation, where we
recommended that it require partners to commit in writing to meet set utilization rates before
approving a loan portfolio guarantee. It asserted that the bank’s payment of origination and
utilization fees on the guarantee served to demonstrate the importance of the guarantee to the
bank’s core business and its intent to use it. The office also noted that forcing financial
institution partners to agree to legally binding targets could result in adverse consequences that
could inhibit USAID’s development efforts in the mobilization of private capital for development,
such as banks making questionable loans under changing market conditions.

While paying origination and utilization fees may be one way that a bank demonstrates the
importance of the guarantee to its core business operations and its intent to utilize it, as
depicted in Table 2, many guarantee agreements still did not meet the office’s utilization targets.
We do recognize, however, that there may be unintended consequences of legally requiring
banks to meet utilization targets. Having utilization guidelines included in on-boarding
documents for bank partners, as mentioned above, would serve to ensure that partner banks
are aware of the utilization targets and could properly incorporate those targets into their
implementation of the guarantee program. Therefore, we have modified our recommendation to
address the inclusion of utilization guidelines in on-boarding documents for bank partners.

We believe that the office’s plans to strengthen its monitoring of utilization combined with the
inclusion of target rates in on-boarding documents will help to encourage increased utilization of
guarantees. Given that this recommendation has been revised in response to management’s
comments, it does not have a management decision at this time. A management decision may
be reached on Recommendation 2 when the office details its response to this revised
recommendation and provides a target date for completion of any actions to be taken to
implement the recommendation.




                                                                                                  11
Recommendation 3. The office agreed with our draft recommendation that it perform the risk
analysis, develop the action package, and write the legal agreement for lenders with acceptable
utilization strategies, and stated that it already did so. Moreover, the office stated that under no
circumstance would it put in place a guarantee without a utilization strategy that was realistic,
transparent, and acceptable to both USAID and its partner financial institution. Yet, one of the
reasons that the office provided for guarantee utilization falling short of targets was that some
banks did not have clear guarantee implementation strategies. Additionally, according to the
office, sometimes banks are eager to sign the agreements and begin collaborating with USAID
without having thought through how they will actually use the guarantee. We have refined the
recommendation to focus on the necessity for a clear and acceptable guarantee implementation
strategy. A management decision is pending on Recommendation 3. A management decision
may be reached on this recommendation when the office details its response to the revised
recommendation and provides a target date for completion of any actions to be taken to
implement the recommendation.

Recommendation 4. The office partially agreed with our draft recommendation, although it
expressed concern regarding setting hard deadlines across countries that have diverse,
underdeveloped, and unpredictable credit markets. The office noted its support for strong,
formal, and published guidelines and that it will insert general guidelines on when to amend,
modify, or terminate a guarantee in its operations manual and portfolio monitoring guide in FY
2014. Based on the office’s response and planned action, we have modified our
recommendation and acknowledge that the office’s planned actions meet the thrust of the
recommendation. However, since the office did not specify a target date for final action, a
management decision has not been made on Recommendation 4.

Recommendation 5. The office agreed with the draft recommendation to the extent it
suggested that DCA guarantees should be based on the applicable mission’s definition of
“Micro, Small and Medium Enterprises (MSMEs).” However, it also noted that when an
operating unit did not specifically define MSMEs, the office followed suit in the guarantee.

We believe that it is important to define MSMEs, especially in guarantees that are directed to
such entities and have revised our finding and recommendation to focus on this issue. The
office has not reached a management decision on Recommendation 5. A management decision
may be reached on this recommendation when the office details its response to the revised
recommendation and provides a target date for completion of any actions to be taken to
implement the recommendation.

Recommendation 6. The office agreed with the intent of the draft recommendation, which it
understood to be that it revise its procedures to require that the office or the mission conduct
site reviews and commission an independent auditor, when warranted. The office indicated that
it will update its operations manual and portfolio monitoring guide to specifically require the
Portfolio Management Team to determine whether conducting site reviews or commissioning an
independent auditor is appropriate if two or more of the criteria established are met. However,
since the office did not specify a target date for final action, a management decision has not
been made on Recommendation 6.

Recommendation 7. In response to our draft recommendation, the office stated that it had a
procedure to confirm whether the risk analyst appropriately weighted the risk factors in
guarantees that identified borrower and lender risks. However, the office also noted that going
forward, it would document the weightings used for all transactions in the Project Information
Sheet of the action package. While documenting the risk weightings is important, another key


                                                                                                 12
element is maintaining clear documentation of the bases for those risk weightings. Such
documentation would allow interested parties to confirm whether the risk analyst correctly
weighted the risk factors when assessing a guarantee that posed borrower and/or lender risks.
Accordingly, the office has not reached a management decision on Recommendation 7.




                                                                                          13
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
OIG’s Performance Audits division conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of the audit was to determine whether the Office of Development Credit complied
with federal regulations and guidance pertaining to credit loan guarantees. Specifically, the audit
determined whether the office complied with the following:

1. OMB Circular No. A-129, the Federal Credit Reform Act of 1990, the Federal Claims
   Collection Act of 1966, as amended pertaining to internal controls.

2. The establishment of a credit review board and a financial management and reporting
   system.

3. A process to calculate subsidy costs and annual reestimates, which is a risk assessment
   procedure.

4. Guidance to review and approve claims, recoveries, and other related activities to ensure
   consistent work practices.

Finally, we also determined whether the office wholly implemented actions that it agreed to
perform from four recommendations issued in “Audit of USAID’s Development Credit Authority.”

We performed the audit at the Office of Development Credit at USAID/Washington from October
26, 2011, through April 16, 2013. Our fieldwork covered the period from FY 1999 through FY
2012.

In planning and performing the audit, the audit team assessed the management controls the
office used to manage the program and ensure that it provided adequate oversight. The team
reviewed OMB Circular No. A-129, the Federal Credit Reform Act, and the Federal Claims
Collection Act, and compared their requirements to controls established in ADS 219, 249, 596,
623, and “Microenterprise Development: A Mandatory Reference for ADS Series 200.”

In addition, we reviewed the following documents:

   Microenterprise for Self-Reliance and International Anti-Corruption Act of 2000

   Microenterprise Results and Accountability Act of 2004

   The Government Accountability Office’s Microenterprise Development, November 17, 2003




                                                                                                14
                                                                                       Appendix I


   2009 and 2010 DCA year in review reports, 2011 DCA portfolio review, and USAID’s
    Microenterprise Results Reporting Annual Report to Congress, FY 2011

   2004 and 2009 operations manuals

   2006 risk assessment handbook

   29 guarantee legal agreements and standard terms and conditions

   25 guarantee action packages, and summary of 39 FY 2011 guarantees and weighted
    average risk factor scores

   Minutes from 4 credit review board meetings. These meetings occurred in December 2009,
    August 2010, January 2011, and July 2011.

   2009 portfolio monitoring guide

   Agreement monitoring plans, biennial reviews, subsidy reestimates, and progress and trip
    reports

   Program evaluation guidelines, including evaluations and impact briefs

   2008-2012 CMS spreadsheets

   55 termination letters

Methodology
To answer the audit objective we interviewed officials at the Office of Development Credit and
the Office of the Chief Financial Officer. We reviewed documents the office gave us to
understand the policies and procedures pertaining to (1) risk assessments, (2) calculation and
re-estimation of subsidy costs, (3) utilization rates, (4) claims and recoveries, and (5) biennial
reviews. Our discussions and the office’s documents covered areas like program background,
organizational structure, governing acts, procedures manuals, and management and staff
responsibilities specified in the operations manual.

“Audit of USAID’s Development Credit Authority” identified two areas needing management
attention and made four recommendations. We assessed the actions the office implemented to
resolve the recommendations and determined that all four were addressed properly.

We used OMB Circular No. A-129, the Federal Credit Reform Act, and the Federal Claims
Collection Act to evaluate the adequacy of significant controls in USAID’s ADS and in the
office’s procedures and guidance manuals.

To analyze utilization rates, we used close-of-fiscal-year CMS data from 2008 to 2012 that the
office provided. For our analyses on utilization rates, we separated active, expired, and
terminated guarantees. We analyzed utilization rates of active guarantees from 2007 to 2011 to
determine their end-of-year utilization using CMS data from 2008 to 2012. This enabled us to
track 5-year utilizations for 2007 guarantees, 4-year utilizations for 2008 guarantees, and so


                                                                                               15
                                                                                       Appendix I


forth. We then analyzed expired guarantees’ utilizations to inquire whether the expired
guarantees met their rates and determined the variance from the rates.

We performed two types of tests to evaluate how the office monitored claims. The first consisted
of tabulating claims and bank fees for each year from 1999 for active and expired guarantees.
For the second test, we analyzed whether the office performed its claim trigger checks
consistently.

We used the office’s prescribed claim checks to test whether two of three conditions were being
met that would prompt further action from the office. During this testing, we learned that the
office had dropped its audit checks and had not performed any audits on guarantees with large
claims.

To confirm whether the office properly estimated and managed the risks of default, we tested
the expected default rates for active and expired guarantees to calculate the expected default
and net claims. In addition, we assessed whether the bank fees and subsidy costs for
guarantees with claims exceeded the claims. From 25 action packages we extracted the
weights the office used for the country, borrower, lender, and transaction risks to (1) confirm the
weighted average risk score and (2) determine the borrower standard weights the office used.

We used the office’s 2012 CMS data to separate microenterprise guarantees and small and
medium-size enterprises guarantees. We then separated them by active and expired
guarantees, and divided the cumulative distribution by the total number of loans to arrive at an
average loan amount. We separated these average loan amounts to compare loans to
microenterprises with loans to small and medium-size enterprises.

Finally, we judgmentally selected 29 legal agreements and determined whether they were
issued to MSMEs and whether MSMEs were defined as the host country defined them. The
sample was chosen to include a reasonable number of agreements from different sectors. Its
results, however, cannot be projected to the entire population of loan portfolio guarantees. In the
agreements that defined MSMEs as the host country did, we determined their utilization rates.
We augmented this analysis by assessing 25 guarantee packages approved by the credit
review board between FY 2007 and FY 2011 where the office estimated the number of subloans
and the average amount of subloans for MSMEs.




                                                                                                16
                                                                                      Appendix II



MANAGEMENT COMMENTS
Date:           October 15, 2013

To:             Steven Ramonas
                Director of Performance Audits
                Office of Inspector General
                U.S. Agency for International Development

From:           Ben Hubbard
                Director of the Office of Development Credit
                Bureau for Economic Growth, Education, and Environment
                U.S. Agency for International Development

Subject:        USAID’s Response to the Office of Inspector General (OIG) Report “Audit of the
                Office of Development Credit’s Compliance with Federal Regulations and
                Agency Policies (Report No. 9-000-12-00X-P)”

Dear Mr. Ramonas:

The Office of Development Credit (ODC) appreciates the significant OIG effort required over
the past two years to review the Development Credit Authority (DCA) program. Unlike grants
or contracts, the DCA guarantee is a complex mechanism that required the OIG auditors to
become familiar with a unique operating model.

This unique model has led to over a decade of positive results, including an overall default rate
of 1.8% and more than $1 billion in financing disbursed to developmentally important sectors in
more than 70 countries. The success and sustainability of the DCA model is based on several
core principles, including but not limited to:

         Partnering with private financial institutions that are commercially driven;
         Utilizing 50% risk-sharing with lenders to support mutually agreed-upon sectors and/or
          market segments;
         Relying on lenders to make credit decisions using their own commercially-oriented
          credit criteria;
         Requiring lenders to exhaust reasonable recovery efforts before claims are submitted;
          and
         Coupling DCA guarantees with technical assistance wherever possible.

The ability of a DCA guarantee to achieve its goals is therefore highly dependent on financial
institution expertise, complementary technical assistance, and evolving market conditions. In
addition, each DCA guarantee needs to be compliant with USG and Office of Management and
Budget (OMB) credit policies. As such, specific DCA policies and procedures have been drafted
in consultation with OMB.


                                                                                               17
                                                                                         Appendix II



While ODC recognizes that the DCA model is unique and nuanced, the office has concerns
regarding portions of the audit recommendations and findings. A number of the examples,
narratives and data used to support the final recommendations are confusing and, in some cases,
inconsistent with the recommendations. Moreover, in some instances, the office has already
taken the recommended course of action.

Nevertheless, ODC stands ready to take whatever actions it can to improve its processes, and
appreciates any actionable insight OIG can provide. ODC appreciates the opportunity to provide
management comments on each of the seven recommendations.

Audit Recommendation 1: We recommend that the Office of Development Credit revise loan
portfolio guarantee utilization rates to reflect historical data, and incorporate them into its
operations manual and portfolio monitoring guide.

Management Response: ODC fully concurs with this recommendation. The office has revised
its utilization targets based on data through FY2011 and will incorporate the revised targets into
its operations manual and portfolio monitoring guide. ODC expects to complete this action in
FY2014.

Audit Recommendation 2: We recommend that the Office of Development Credit implement an
action plan to encourage banks to meet loan portfolio guarantee utilization rates and require
them to make written commitments to meeting those rates before guarantees are approved.

Management Response: ODC is already complying with the first part of this recommendation
and does not concur with the second part.

With regard to utilization action plans, the office, in conjunction with the mission, implements a
detailed monitoring plan for each guarantee, which indicates how utilization will be tracked,
reported and encouraged. Through these action plans, financial institutions are already being
encouraged to meet their utilization targets. As a result of this audit, ODC will revise its
procedures for new guarantees during FY2014 to ensure that utilization guidelines are included
in on-boarding documents for bank partners.

In addition, as part of its FY2013 annual performance goals, the office strengthened its portfolio
management efforts with a particular emphasis on increasing utilization. ODC’s portfolio
management team introduced new processes and procedures to better monitor utilization levels,
including quarterly outreach to financial institution partners to review current utilization levels.
Portfolio management improvements will be formalized and captured in the office’s FY2014
update of the DCA Operations Manual.

With regard to requiring partners to provide written commitments to meet set utilization rates
before guarantee approval, the office disagrees and believes it is based upon a fundamental
misunderstanding of how the office operates and how its guarantees are viewed by its private
sector partners.




                                                                                                  18
                                                                                         Appendix II


As referenced in the beginning of this letter, guarantees are market-based financial products
designed to encourage private capital lending to developmentally important sectors. As such,
USAID cannot and should not dictate to a private lender when and how much to use the
guarantee. These decisions should be based upon commercial considerations and underlying
markets conditions. ODC and USAID missions spend a great deal of time understanding those
conditions before designing guarantees to make certain the guarantee is aligned with the bank’s
commercial strategy and USAID’s development priorities. Furthermore, the bank is required to
pay origination and utilization fees on the guarantee. This serves to demonstrate the importance
of the guarantee to the bank’s core business operations and its intent to utilize it. Such market-
based assurances are sufficient to demonstrate the financial institutions’ commitment to full use
of the guarantee over time.

Going beyond fees to require legally binding utilization targets on a financial institution partner
would unnecessarily and unnaturally bind that partner to targets that may not make commercial
sense.

ODC believes that forcing financial institution partners to agree to such targets would result in
one of several negative consequences that would severely inhibit USAID’s development efforts
in the mobilization of private capital for development:

      ODC’s partners would simply refuse to enter into a guarantee agreement with USAID,
       rendering useless what is currently the Agency’s most effective and catalytic tool for
       mobilizing private capital;
      ODC’s partners would begin making questionable loans under changing market
       conditions because the new requirement would essentially force them to rapidly disburse
       funds regardless of whether a loan made sense economically; or
      ODC’s partners would be forced to continue to lend under the guarantee (and pay for it)
       even if they have become convinced that there is a commercially viable opportunity to
       lend to the targeted sector without the need of a guarantee.

While forcing financial institution partners to agree to prescribed utilization targets seems like a
quick and easy way to increase utilization rates, it is not. Accordingly, ODC believes the better
approach is to continue enhancing its existing methods to encourage and reach better utilization
rates. These methods include, but are not limited to: working with lenders to review and amend
guarantee agreements, reducing facility sizes, recommending training or technical assistance for
borrowers and lenders, and terminating guarantees in cases where it was clear that utilization will
not increase.

Audit Recommendation 3: We recommend that the Office of Development Credit perform the
risk analysis, develop the action package, and write the legal agreement for lenders with
acceptable utilization strategies.

Management Response: ODC concurs with this recommendation because the office already
does this with each guarantee it issues. Under no circumstance would the office put in place a
guarantee without a utilization strategy that was realistic, transparent and acceptable to both


                                                                                                  19
                                                                                          Appendix II


USAID and its partner financial institution. As a result, every risk analysis conducted, action
package developed, and legal agreement written is done with an acceptable utilization strategy in
place.

Prior to each guarantee transaction being closed, USAID has determined that the use of a
guarantee a) makes sound development sense, b) is aligned with USAID’s priorities, c) supports
a core commercial strategy of the guaranteed party, d) is based on terms and conditions
acceptable to all parties, and e) is based on a clear utilization expectations shared by all parties.
To demonstrate their commitment to the guarantee and its use, financial institution partners are
required to pay both origination and utilization fees. These commercial commitments clearly
demonstrate that the financial institution partner intends to utilize the guarantee and finds the
utilization strategy developed for the transaction with ODC acceptable. Otherwise, it would
simply not pay for the guarantee.

Audit Recommendation 4: We recommend that the Office of Development Credit set a limit on
the amount of time allowed to elapse before the office amends, modifies, suspends, or terminates
agreements that are not meeting utilization rates.

Management Response: ODC partially concurs with this recommendation. The office
recognizes a need to limit the total amount of time an underutilized guarantee remains in the
portfolio without being amended, modified or suspended. As a result, it will set guidelines on
when to amend, modify or terminate a DCA guarantee for lack of use. General guidelines will
be included in the 2014 revision to DCA’s Operations Manual and Portfolio Monitoring Guide.

That said, ODC cannot set hard limits when such actions must be taken. USAID implements
guarantees in markets that are extremely diverse, underdeveloped and unpredictable. In every
case in which a guarantee is being underutilized, ODC works closely with missions to determine
the exact cause of underutilization and the appropriate corrective action. This case-by-case
approach is not unique to ODC, as it is routinely taken across USAID’s entire platform, whether
a program is being implemented through a contract, cooperative agreement, grant or loan
guarantee. This flexibility is critical to most efficiently respond to significant and often
unforeseen changes on the ground that are beyond the control of USAID’s financial (or
implementing) partners to influence or control (e.g., macroeconomic shocks). Setting a hard
deadline without taking into consideration and responding to the underlying drivers of
underutilization is an inefficient way to structure guarantees, is not consistent with the way
USAID deploys other implementing mechanisms, undermines USAID’s attempts to affect
lasting behavioral change in the marketplace and could force DCA to terminate guarantees at
exactly the moment when they are needed most from a development perspective. This is why
the office supports strong, formal and published guidelines but stops short of developing hard
limits.

Audit Recommendation 5: We recommend that the Office of Development Credit coordinate
with missions to define what constitutes a micro, small, and medium-size enterprise in the host
country and insert the definitions into its legal agreements.




                                                                                                   20
                                                                                     Appendix II


Management Response: ODC concurs with this recommendation, to the extent it suggests that
DCA guarantees should be based on the applicable mission’s definition of “Micro, Small and
Medium Enterprises (MSMEs).” To the extent that is the recommendation, this is exactly what
ODC already does. Each guarantee the office develops is in response to a development need
identified by a mission (or a USAID/Washington operating unit) and supports an existing
program implemented by that mission. As such, those existing programs are being implemented
under established definitions of MSMEs appropriate to the local context. When ODC designs a
guarantee, it does so based upon those definitions and includes those definitions in its legal
agreements. If operating units decide not to define MSMEs narrowly or specifically, ODC
follows suit within the guarantee. The office does not develop its own definitions, nor does it
impose standard definitions on missions. The main concern embedded in the audit finding
appears to be that operating units do not use consistent definitions of MSMEs across the USAID
platform. If so, ODC believes this audit finding is misplaced in an audit of DCA credit
guarantees and should be directed more broadly at the Agency.

Audit Recommendation 6: We recommend that the Office of Development Credit revise its
operations manual and portfolio monitoring guide to require that it or the mission conduct site
reviews, and commission an independent auditor to determine whether there are irregularities in
claims when two or more of the criteria established are met.

Management Response: ODC understands that the intent of this recommendation is for ODC
to revise its procedures to require that it or the mission conduct site reviews and commission an
independent auditor when warranted, which may or may not be the case when two or more of the
criteria established are met. ODC agrees with the intent of this recommendation. As discussed
below, ODC already complies with the intent and will continue to do so.

ODC currently complies with the intent of this recommendation because it considers many
different options when reviewing claims made by guaranteed parties, including site visits and
independent audits. ODC’s Portfolio Management Team ensures the health of the DCA
portfolio, including that only credible, legally-complaint claims are paid. The Portfolio
Management Team has sufficient capacity and expertise to review claims as they come in and
determine how to most efficiently handle those claims. This process involves carefully reviewing
original loan documentation, including the original loan approval/agreement, proof of
disbursement, amortization schedule, borrower payment history, final demand letter,
and explanation for default. As part of that process, the Portfolio Management Team has
conducted site visits and has considered whether an independent audit was warranted.

As a result of this recommendation, ODC will update its operations manual and portfolio
monitoring guide to specifically require the Portfolio Management Team to determine whether
conducting site reviews or commissioning an independent auditor is appropriate if two or more
of the criteria established are met. The update will encourage the Portfolio Management Team to
consider many factors when making this determination, including the cost of such activities in
comparison to the claim amounts and whether the information already provided to the Agency by
the guaranteed party is sufficient to support the claims made.




                                                                                              21
                                                                                    Appendix II


Audit Recommendation 7: We recommend that the Office of Development Credit implement a
procedure to confirm whether the risk analyst appropriately weighted the risk factors in
guarantees that identified borrower and lender risks.

Management Response: ODC already complies with this recommendation. Under the office’s
current risk assessment methodology, which complies with the Federal Credit Reform Act
(FCRA) of 1990 and has been approved by OMB, risk analysts have some prescribed flexibility
in adjusting risk weightings if the particular circumstances of a transaction call for such an
adjustment. Before an analyst adjusts these weightings, however, he/she must consult and gain
the approval of the Agency’s Chief Risk Officer (CRO). Furthermore, those adjustments must
be explicitly addressed in the risk assessment report presented to the Credit Review Board (CRB)
and highlighted in the risk analyst’s oral presentation to the board. Thus, if the weights are
adjusted by an analyst, those changes must be explicit and affirmatively agreed to by the CRO
and CRB. Going forward, ODC will include language in the Project Information Sheet of the
Action Package indicating the weightings that were used for all transactions. This will ensure
that the weighting decision is always documented.




                                                                                             22
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
